                        June 15, 2000

                        DANNY JACKSON
                        ACTING VICE PRESIDENT, GREAT LAKES AREA
                         OPERATIONS

                        SUBJECT: Letter Advisory Report - Old Chicago Main Post
                                 Office (Report Number FA-LA-00-002)

                        This report presents the results of our review of the disposal
                        of property at the Old Chicago Main Post Office (Project
                        Number 99RR002FA000). The review was initiated based
                        on concerns by a Postal Service Governor regarding the
                        disposal of property at the Old Chicago Main Post Office.

Objective, Scope, and   The objective of the review was to evaluate the
Methodology             accountability and management of transferred and disposed
                        capital personal property. As part of the review, Chicago
                        Postal Service officials provided a list of 587 capital property
                        items valued at approximately $15.9 million that were either
                        disposed of or transferred. We judgmentally selected 232 of
                        the 587 items to determine if the process used in the
                        transfer and disposal of property was in accordance with
                        Postal Service policy.

                        This review was conducted in accordance with the
                        President’s Council on Integrity and Efficiency, Quality
                        Standards for Inspections. We discussed our conclusions
                        and observations with appropriate management officials and
                        included their comments, where appropriate.

Observations            We found that Chicago Postal Service officials used the
                        correct forms in the transfer and disposal of the 232 items
                        reviewed. Specifically, Postal Service officials transferred
                        177 items valued at approximately $7.5 million and
                        disposed of 55 items valued at approximately $3.3 million.
                        However, we could not confirm that all property was
                        properly accounted for because Postal Service officials had
                        not conducted a current physical inventory prior to the
                        transfer and disposal of the property.
Old Chicago Main Post Office                                                        FA-LA-00-002



                               The last inventory prior to the transfer and disposal of
                               property in 1995 had been completed in 1990. Postal
                               officials informed us that a physical inventory was not
                               conducted during fiscal year 1995, because headquarters
                               postponed the physical inventories for fiscal year 1995 due
                               to the decisions on the capital property dollar limitation.

                               Additionally, the review identified potential opportunities to
                               improve information regarding the location of capital
                               property. We are referring this information to our Financial
                               Audit Team for consideration as part of a capital property
                               financial statement audit.

                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you or your staff have any
                               questions, please do not hesitate to contact Anthony
                               Cannarella, director, Facilities, or me at (703) 248-2300.



                               Sylvia L. Owens
                               Assistant Inspector General
                                for Business Protection

                               cc: John R. Gunnels




                                                2
Old Chicago Main Post Office       FA-LA-00-002




 Major Contributors to
 This Report




                               3
